No. 19-__

 

IN THE

Supreme Court of the United States

IN RE PETER APPEL AND SALLY JANE GELLERT
(AND OTHER SIMILARLY SITUATED PERSONS),
Petitioner,

ve

THE UNITED STATES, AND DONALD J. TRUMP AS
PRESIDENT AND MIKE PENCE AS VICE PRESIDENT,
Respondents,

and

HILLARY CLINTON AND TIM KAINE,
Interested Persons.

PETITION FOR EXTRAORDINARY WRIT OF
DIRECT REVIEW FROM CONGRESSIONAL
CERTIFICATION PURSUANT TO RULE 20
(Re the Electoral College)

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,999 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 10, 2019.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
